LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

January 20, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE: NO. 19-1257: MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL. V.
DEMOCRATIC NATIONAL COMMITTEE, ET AL.
RE: NO. 19-1258: ARIZONA REPUBLICAN PARTY, ET AL. V. DEMOCRATIC NATIONAL
COMMITTEE, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Voting Rights Scholars referenced above contains 7,431 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of January 2021.

